                            CLOSEOUT FOR M-96030008
       On 25 March 1996, OIG was informed of possible allegations of misconduct in
science by an NSF Division ~irector.' He brought two letters received about a month apart
from two scientists, complainant l 2 and complainant 2.3 Each complainant had been sent an
NSF proposal4 to review. The complainants separately alleged that the s ~ b j e c ta, ~co-PI on
the proposal, misrepresented information in it. They said that, according to the proposal, the
subject was to be a paid consultant for between 2 to 6 months a year for the duration of the 3-
year project and that the subject had rec.eived permission for this consulting work from the
company's president. They said these arrangements far exceeded the general limits for
outside consulting by full-time company employees and that the statement that the
arrangements had been approved was not true.

       Complainant 1, who worked for the same private company as the subject, said that the
company's president was unaware of the subject's planned consulting arrangements.
Complainant 1 alleged that the subject also misrepresented a manuscript6 in the proposal's
reference section. He said that the citation included him as a co-author, but the manuscript
did not exist. Finally, complainant 1 asked if he could provide a copy of the proposal to the
company's business office so they could take appropriate action against the subject.

        Immediately after reviewing complainant 1's letter and before receipt of
complainant 2's letter, the Division Director wrote to complainant 1 explaining that NSF
proposals were confidential and it would be inappropriate for complainant 1 to discuss or
share the information in it with anyone other than NSF staff. In addition, he acknowledged
that, although NSF does not generally use recent collaborators of PIS as reviewers, "this
policy was apparently overlooked in [this] case." Further, he explained that, although the
proposal stated that the consulting arrangements had been agreed to by the company
                                 CLOSEOUT FOR M-96030008

president, only if the proposal were funded would NSF confirm the arrangements. Finally,
he explained that the alleged non-existent manuscript listed in the reference section of the
proposal was neither cited in the body of the proposal nor included on the subject's
biographical sketch and, therefore, it served no purpose and was not relevant to the proposal.

       Complainant 2 explained that, because he knew the company president well, he
thought it unlikely approval for the subject's consulting would have been granted.
Complainant 2 also alleged that some of the work in the proposal had already appeared in a
journal article7 authored by the subject and that this work was also currently funded by a
consortium.* Finally, complainant 2 urged the NSF program to contact the president of the
company about this matter.

       OIG reviewed the proposal, which was not funded. We agreed with the Division
Director's recommendations to complainant 1 and his observations about the manuscript and
the consulting arrangement. In addition, we noted that, although the subject was listed as a
co-PI on the front of the Cover Sheet, the subject was not listed on the certification section
and did not sign the proposal. OIG determined that there was no evidence that the subject
misrepresented the consulting arrangements or the manuscript in the proposal.

        OIG determined that there was no substance to the allegation that the subject sought
funding for work that had already been done or was fimded under an award to her company.
First, the subject's article, which had been published in a preeminent journal, was cited on
numerous occasions in the proposal and presented a mathematical model with applicability
to several areas of research that needed to be pursued. The NSF proposal focused on one of
these areas: the collection of additional data in conjunction with the improvement of a
component of a mathematical model. Finally, the consortium support of research at the
subject's company that may have overlapped with the work proposed to NSF by a separate
entity raises no issue of impropriety.

       OIG concluded that there was no substance to the allegations. This case is closed and
no further action will be taken.

cc: Staff Scientist,-AIG-Oversight,legal, IG




 The article, entitled


 Alternative Fluorocarbons Environmental Acceptability Study is a consortium of 17 international companies.


                                            page 2 of 2                                           M 96-08
